       U.S. Department of the Interior
       Office of Inspector General

                                    Audit Report
           Emergency Services Surcharge Collections by
            Innovative Telephone Corporation on Behalf
                of the Government of the Virgin Islands




Report No. 2003-I-0067                   September 2003
                                                                              V-IN-VIS-0003-2003

                United States Department of the Interior
                                OFFICE OF INSPECTOR GENERAL
                                     Eastern Regional Office
                                   381 Elden Street – Suite 1100
                                     Herndon, Virginia 20170

                                                                                September 26, 2003

Honorable Charles W. Turnbull                                   Mr. David Sharp
Governor of the Virgin Islands                                  President and CEO
Government House                                                Innovative Telephone Corporation
No. 21 Kongens Gade                                             Post Office Box 6100
Charlotte Amalie, Virgin Islands 00802                          St. Thomas, Virgin Islands 00801

Subject: Audit Report “Emergency Services Surcharge Collections by Innovative Telephone
         Corporation on Behalf of the Government of the Virgin Islands” (No. 2003-I-0067)

Dear Governor Turnbull and Mr. Sharp:

        This report presents the results of our audit of the emergency services surcharge
collections made by Innovative Telephone Corporation on behalf of the Government of the
Virgin Islands. The objective of the audit, which was requested by a member of the Virgin
Islands Legislature, was to determine whether (1) Innovative Telephone collected and remitted
the emergency services surcharge to the Commissioner of Finance in accordance with the
provisions of Act No. 6333, as amended, and (2) the Department of Finance promptly deposited
and accurately accounted for the emergency services surcharge remittances.

       Section 5(a) of the Inspector General Act (5 U.S.C. app. 3) requires the Office of
Inspector General to list this report in its semiannual report to the U.S. Congress. In addition, the
Office of Inspector General provides audit reports to the Congress.

       Please provide a response to this report by October 29, 2003. The response should
provide the information requested in Appendix 5 and should be addressed to Mr. Roger
La Rouche, Assistant Inspector General for Audits, Office of Inspector General, U.S.
Department of the Interior, 1849 C Street, NW (MS-5341), Washington, DC 20240; with a copy
to our Caribbean Field Office, Ron deLugo Federal Building – Room 207, St. Thomas, VI
00802.

                                                      Sincerely,



                                                      William J. Dolan, Jr.
                                                      Regional Audit Manager

cc: Commissioner of Finance
    Director of Management and Budget
[This page intentionally left blank]
CONTENTS
                   Background .................................................................................... 1
INTRODUCTION       Objective and Scope ...................................................................... 1
                   Prior Audit Coverage ..................................................................... 2


                   Overview........................................................................................ 3
RESULTS OF AUDIT   Billing and Remittance Practices ................................................... 3
                   Accounting Practices ..................................................................... 5


                   ........................................................................................................ 7
RECOMMENDATION


                   1.   Monetary Impact....................................................................... 9
APPENDICES         2.   Surcharge Remittances..............................................................10
                   3.   Surcharge Expenditures ............................................................11
                   4.   Governor’s Response to Draft ..................................................12
                   5.   Innovative’s Response to Draft.................................................14
                   6.   Status of Recommendation .......................................................17
[This page intentionally left blank]
INTRODUCTION
                In December 1999, the Legislature of the Virgin Islands enacted
BACKGROUND      Act No. 6333, the 2000 Fiscal Year Omnibus Authorization Act.
                Section 29 of the Act established an emergency services surcharge
                of $1 to be added to all telephone bills beginning on
                January 1, 2000. The Virgin Islands Telephone Corporation (now
                the Innovative Telephone Corporation) was to collect the surcharge
                with each monthly payment and remit such collections to the
                Commissioner of Finance within 15 days of collection. The Act
                also stipulated that the Commissioner of Finance was to deposit the
                proceeds of the surcharge into a special account known as the
                Emergency Services Special Fund. The monies in the Fund were
                to be earmarked for use by the Commissioner of Health, the
                Commissioner of Police, and the Director of the Fire Service “for
                the purchase of equipment or supplies to provide, maintain or
                improve emergency medical services, fire services or 911
                emergency equipment.”

                Innovative Telephone requested that the Virgin Islands delay
                implementation of the Act until it could update its computerized
                billing system and accommodate its three billing cycles.
                Residential and business customers are billed on the 1st or the 15th
                of each month, and government customers are billed on the 8th of
                each month. In June 2000, the Legislature enacted Act No. 6353.
                Section 1 of the Act changed the effective date for imposing the
                $1 surcharge to April 1, 2000, and changed the due date for
                remittance of surcharge collections to a “monthly basis in
                accordance with the billing and collection procedures” of
                Innovative Telephone.


                The objective of the audit was to determine whether (1) Innovative
OBJECTIVE AND   Telephone collected and remitted the emergency services
SCOPE           surcharge to the Commissioner of Finance in accordance with the
                provisions of Act No. 6333, as amended, and (2) the Department of
                Finance promptly deposited and accurately accounted for the
                emergency services surcharge remittances. The scope of the audit
                included emergency services surcharge amounts billed and
                remitted during the period of April 2000 to September 2002.

                To accomplish our audit objective, we interviewed officials of and
                reviewed billing, remittance, and accounting records at Innovative
                Telephone, the Office of Management and Budget, the Department
                of Finance, the Public Services Commission, and the Federal



                             1
              Communications Commission. An auditor from the Office of the
              Virgin Islands Inspector General participated as a member of the
              audit team.

              The scope of our audit was limited in that the sources of
              information related to billings for the emergency services
              surcharge were internal to or originated at Innovative Telephone.
              There were no external or independent sources of this information.
              The primary source document used for our audit was the Billing
              Cycle Summary by Charge Code reports, which are produced
              automatically as part of the computerized billing process and show
              a detailed summary of charges billed during each billing cycle.
              Billings to charge codes 116 and 126 related to the emergency
              services surcharge. The Billing Cycle Summary by Charge Code
              reports are used by Innovative Telephone to post charges to its
              general ledger accounts for financial accounting purposes. We
              were able to verify the reported surcharge amounts for January and
              June 2002 to detailed Emergency Services Tax Reports, which
              listed all bills issued as part of the three billing cycles for each of
              these two months. The Emergency Services Tax Reports had been
              prepared by Innovative Telephone at the request of the Public
              Services Commission.

              Our audit was conducted in accordance with the “Government
              Auditing Standards,” issued by the Comptroller General of the
              United States. Accordingly, we included such tests of records and
              other auditing procedures that were considered necessary under the
              circumstances. The “Standards” require that we obtain sufficient,
              competent, and relevant evidence to afford a reasonable basis for
              our findings and conclusions.

              As part of our audit, we evaluated the internal controls related to
              the billing, remittance, and accounting for the emergency services
              surcharge to the extent we considered necessary to accomplish the
              audit objective. Internal control weaknesses identified in these
              areas are discussed in the Results of Audit section of this report.
              The recommendation, if implemented, should improve the internal
              controls in these areas.

              Neither the Office of Inspector General, U.S. Department of the
PRIOR AUDIT   Interior, nor the Office of the Virgin Islands Inspector General has
COVERAGE      performed any prior audits of the emergency services surcharge.




                            2
RESULTS OF AUDIT
              The Innovative Telephone Corporation billed for and remitted to
OVERVIEW      the Government of the Virgin Islands (the Government) the
              emergency services surcharge in accordance with the provisions of
              Act No. 6333, as amended. Likewise, the Department of Finance
              deposited and accounted for emergency services surcharge
              remittances in accordance with the provisions of Act No. 6333, as
              amended.

              In a related matter, we noted that Innovative Telephone
              consolidated the telephone bills of some customers who had
              multiple telephone lines. This resulted in a reduction of surcharge
              payments by these customers because the surcharge is based on
              bills not telephone lines. Had these bills not been consolidated, we
              estimate that surcharge payments would have increased by
              approximately $9,000 per month.

              Finally, we noted that early in the process Innovative Telephone
              (from April 2000 to June 2001) did not always remit the
              emergency services surcharge collections within 15 days of the end
              of each month, and the Department of Finance (from April to
              August 2000) did not pay the costs to maintain the 911 emergency
              telephone service until 6 to 10 months after the costs were
              incurred. These matters have been resolved and are now handled
              within appropriate time frames.


              During the 30-month period of April 2000 to September 2002,
BILLING AND   Innovative Telephone billed customers and remitted to the
REMITTANCE    Government a total of $1,813,626 for the emergency services
PRACTICES     surcharge (see Appendix 2). This represented an average of
              $60,454.20 per month, with a monthly high of $61,530 in March
              2001 and a monthly low of $58,365 in August 2002. The monthly
              variances were caused by new telephone accounts being opened
              and old accounts being closed each month.

              Innovative Telephone remits the monthly emergency services
              surcharge amounts to the Government in advance of collection of
              these amounts from some of its telephone customers. Therefore,
              the remittances are actually being paid from Innovative
              Telephone’s funds when customers are delinquent in the payment
              of their telephone bills. In this regard, the $1,813,626 total amount
              remitted to the Government included a total deduction of $15,082
              (0.83 percent) representing unpaid emergency services surcharge



                           3
                     amounts related to delinquent customer accounts that were written-
                     off as uncollectible by Innovative Telephone.


Surcharge            We concluded that Innovative Telephone charged customers for
Methodology Was      the emergency services surcharge at the rate of $1 per telephone
Based on Number of   bill, as stipulated in Act No. 6333. This rate of $1 per bill did not
Bills Issued         take into consideration the number of individual telephone lines
                     that might be represented on each bill.

                     Information we obtained from the Federal Communications
                     Commission indicates that as of December 31, 2001, Innovative
                     Telephone had 69,073 “loops,” or connections between the
                     telephone company and customers that were subject to the
                     Federally-mandated Universal Service Charge.

                     Our review of Innovative Telephone’s Emergency Services Tax
                     Reports for January and June 2002 disclosed that many telephone
                     customers had multiple telephone lines that were consolidated
                     under one account. Therefore, these customers were only required
                     to pay $1 per month for the emergency services surcharge
                     regardless of the number of telephone lines represented on their
                     monthly bills.

                     In contrast, we noted that other customers were receiving
                     individual bills for each telephone line they had, with a resulting
                     emergency services surcharge of $1 on each monthly bill. For
                     example, a customer with five telephone lines, each billed
                     separately, would be charged a total of $5 each month for the
                     emergency services surcharge.

                     It is our understanding that any customer can request that multiple
                     telephone lines be consolidated under one account and one
                     monthly bill. However, the difference in the ways that customers
                     with multiple telephone lines have set up their accounts results in
                     inconsistent treatment that may not have been the intent of the
                     Legislature in enacting Act No. 6333.

                     The monetary effect of the inconsistent treatment accorded by the
                     billing method stipulated in Act No. 6333 is that while monthly
                     remittances of the emergency services surcharge averaged $60,454
                     per month, billing on the basis of the number of telephone lines
                     would have generated emergency services surcharge collections of
                     about $69,000 per month. If billed on the basis of the number of
                     telephone lines, additional emergency services surcharge revenues
                     of about $256,380 (see Appendix 1) would have been generated



                                  4
                       during the 30-month period of April 2000 to September 2002
                       (computed as $69,000 - $60,454 x 30 months).

                       Other possible methodologies for more equitably assessing the
                       emergency services surcharge include adding the $1 charge to each
                       monthly electrical bill issued by the Virgin Islands Water and
                       Power Authority or adding $12 to each annual real property tax bill
                       issued by the Office of the Tax Assessor.

                       Regardless of the ultimate methodology used, we believe the
                       Government should consider further amending Act No. 6333 to
                       implement an alternative method of assessing the emergency
                       services surcharge that is more equitable to all residents and
                       businesses.


Initial Surcharge      Act No. 6333 required Innovative Telephone to remit emergency
Collections Were Not   services surcharge collections to the Commissioner of Finance
Remitted Timely        within 15 days of the date of collection. In June 2000, Act
                       No. 6353 amended the remittance requirement to “a monthly basis
                       in accordance with billing and collection procedures” of Innovative
                       Telephone but without a specific deadline, such as the 15-day
                       timeframe originally contained in Act No. 6333. However, for
                       consistency, we reviewed the timeliness of remittances on the basis
                       of 15 days after the end of each month. On this basis, we
                       concluded that, of the 30 months included in our review,
                       Innovative Telephone was late 11 times in making remittances –
                       ranging from 54 days late for April 2000 (the first month of the
                       process) to 1 day late for July 2000, with an average of 19 days
                       late. Since July 2001, remittances have been made within the
                       15-day timeframe.

                       An Innovative Telephone official explained that the remittance
                       delays in the early months of the process occurred because the
                       procedures for transmitting the funds from Innovative Telephone
                       to the Department of Finance were being worked out. According
                       to the company official, each month the original payment check
                       and a copy of the remittance statement was submitted to the
                       Department of Finance, and a copy of the payment check and the
                       original remittance statement was submitted to the Office of
                       Management and Budget.


                       The Department of Finance promptly deposited the emergency
ACCOUNTING             services surcharge remittances, totaling $1,813,626, that were
PRACTICES              received from Innovative Telephone. Finance also accounted for



                                    5
                        these monies in the Emergency Services Special Fund as required
                        by Act No. 6333. However, we found that some of the
                        disbursements from the Special Fund to pay the costs to maintain
                        the 911 emergency telephone service were made up to 10 months
                        late.

                        According to records maintained by Finance’s General Ledger
                        Section, $123,000 was allocated from the Special Fund in fiscal
                        year 2001 and again in fiscal year 2002 to pay the costs related to
                        the 911 emergency telephone service. The remaining balance in
                        the Special Fund was evenly distributed in fiscal years 2000, 2001,
                        and 2002 among the Department of Health, the Police Department,
                        and the Fire Service for emergency services as stipulated in Act
                        No. 6333. Of the allotted amounts, a total of $1,488,000 was
                        expended or obligated for expenditure – $127,583 for 911
                        emergency telephone service, $485,912 by Health, $438,506 by
                        Police, and $435,999 by Fire (see Appendix 3).


Initial Payments For    Disbursements are made from the Emergency Services Special
911 Telephone Service   Fund to pay Innovative Telephone for maintaining the 911
Were Delayed            emergency telephone service. However, we found that Finance did
                        not pay 911 service costs incurred for April through August 2000
                        until February 2001, or 6 to 10 months late. The V.I. Director of
                        Management and Budget wrote to the V.I. Commissioner of
                        Finance in September 2000, and again in January and February
                        2001, advising that the monthly bills for 911 emergency telephone
                        service should be paid before distribution of the emergency
                        services surcharge funds to the three emergency service agencies
                        (Health, Police, and Fire) in order to reduce paperwork and
                        centralize the maintenance and bill paying functions for 911
                        emergency telephone service. Since March 2001, payments have
                        been timely.




                                     6
RECOMMENDATION
                  We recommend that the Governor of the Virgin Islands consider
TO THE GOVERNOR   proposing legislation to further amend Act No. 6333 to establish an
OF THE VIRGIN     alternate billing methodology for the emergency services surcharge
ISLANDS           that more equitably assesses the surcharge against all residents and
                  businesses in the Virgin Islands.


                  The Governor’s July 22, 2003, response (see Appendix 4) to the
GOVERNOR’S        draft report did not concur with the recommendation, stating that
RESPONSE          he would request an amendment to Act No. 6333 only if
                  “Innovative is not allowing some customers to consolidate [bills]
                  while others are being accorded this benefit, or is consolidating
                  bills of non-related individuals or companies.” The Governor also
                  did not concur with our estimate that potential emergency
                  surcharge revenues of about $9,000 per month were being lost
                  because of the methodology of assessing the surcharge. Lastly, the
                  Governor stated that Innovative Telephone sent remittance checks
                  to the Department of Finance, not the Office of Management and
                  Budget, and that the delay in implementing the provisions of Act
                  No. 6333 was as a result of a request from Innovative Telephone.
                  Based on the response, we consider the recommendation to be
                  unresolved (see Appendix 6).


                  With regard to the recommendation, we continue to believe that it
OFFICE OF         is not equitable to assess telephone customers the emergency
INSPECTOR         services surcharge differently simply on the basis of whether or not
GENERAL REPLY     they have multiple telephone lines that are consolidated onto one
                  bill. Additionally, it is a fact that if the surcharge was assessed on
                  the number of telephone lines instead of the number of telephone
                  bills, as much as $256,000 in additional surcharge revenues would
                  have been available to finance the operations of critical emergency
                  operations, such as fire, police, and emergency medical services.
                  Alternative methodologies for assessing the surcharge could
                  include adding the surcharge to monthly electrical bills or to
                  annual real property tax bills. Therefore, we believe that the
                  Governor should reconsider the recommendation.

                  Regarding the process for remittance of monthly surcharge
                  amounts to the Government, we contacted an Innovative
                  Telephone official who confirmed that the original remittance
                  checks were submitted to the V.I. Department of Finance, not the




                                7
                V.I. Office of Management and Budget. We have revised the
                report accordingly.

                Lastly, while we agree with the Governor that implementation of
                the surcharge was delayed from January to April 2000 at the
                request of Innovative Telephone, that delay was unrelated to the
                later delays by Innovative in remitting surcharge checks to the
                Government. Since July 2001, Innovative has submitted all
                surcharge checks within the required time frame.


                The August 7, 2003, response (see Appendix 5) from Innovative
INNOVATIVE’S    Telephone’s President and CEO expressed concern about changing
RESPONSE        the method of assessing the emergency services surcharge to one
                based on the number telephone lines, as opposed to the number of
                bills issued, because of the added burden such a change would
                represent for the company.


                Our finding focused on the inequity caused by the current
OFFICE OF       methodology of assessing the surcharge against each telephone bill
INSPECTOR       issued because this inequity was the catalyst for the request by a
GENERAL REPLY   member of the Virgin Islands Legislature that we perform the
                audit. However, we recognize that there are several different ways
                that the surcharge could be assessed. For that reason, our
                recommendation does not specify a preferred methodology, stating
                simply that Act No. 6333 should be amended to establish a more
                equitable methodology for assessment. The choice of that
                methodology is left to the Governor and the Legislature.




                             8
APPENDIX 1 - MONETARY IMPACT

FINDING AREA                           Unrealized
                                       Revenues

Billing Methodology                    $256,380*




__________
* Amount represents local funds.




                                   9
APPENDIX 2 – SURCHARGE REMITTANCES

                                         Surcharge              Less:                    Net           Net
                                          Amount               Write-Off              Surcharge    Surcharge
No.            Month                       Billed              Amount                  Amount       Remitted
  1.  April 2000                            $60,292                  $0                  $60,292      $60,292
  2.  May 2000                               60,355                   0                   60,355       60,335*
  3.  June 2000                              60,590                   0                   60,590       60,590
  4.  July 2000                              60,729                   0                   60,729       60,749*
  5.  August 2000                            60,879                   0                   60,879       60,879
  6.  September 2000                         60,961                   0                   60,961       60,961
  7.  October 2000                           61,207                   0                   61,207       61,207
  8.  November 2000                          61,302                   0                   61,302       61,302
  9.  December 2000                          61,208                   0                   61,208       61,208
 10.  January 2001                           61,229                   0                   61,229       61,229
 11.  February 2001                          61,466                   0                   61,466       61,466
 12.  March 2001                             61,530                   0                   61,530       61,530
 13.  April 2001                             61,207                   0                   61,207       61,207
 14.  May 2001                               61,123                   0                   61,123       61,123
 15.  June 2001                              60,042                 638                   59,404       59,404
 16.  July 2001                              60,633                 341                   60,292       60,292
 17.  August 2001                            60,873                 808                   60,065       60,065
 18.  September 2001                         60,755                 890                   59,865       59,865
 19.  October 2001                           60,678               1,940                   58,738       58,738
 20.  November 2001                          60,782               1,533                   59,249       59,249
 21.  December 2001                          60,698                 949                   59,749       59,749
 22.  January 2002                           60,787               2,318                   58,469       58,465
 23.  February 2002                          60,910                 671                   60,239       60,243
 24.  March 2002                             61,032                 153                   60,879       60,879
 25.  April 2002                             61,244                  32                   61,212       61,212
 26.  May 2002                               61,337                 205                   61,132       61,132
 27.  June 2002                              61,283                 183                   61,100       61,100
 28.  July 2002                              61,203                 301                   60,902       60,902
 29.  August 2002                            61,284               2,919                   58,365       58,365
 30.  September 2002                         61,089               1,201                   59,888       59,888
        Totals                           $1,828,708             $15,082               $1,813,626   $1,813,626
__________
* A $20 remittance shortage in May 2000 was corrected in July 2000.

Source: Based on source documents reviewed at the Innovative Telephone Corporation.




                                                     10
APPENDIX 3 – SURCHARGE EXPENDITURES

                                            911
                          Fiscal         Emergency             Department               Police          Fire
    Description           Year            Service               of Health             Department       Service

Allotments                 2000                   $0               $80,655                   $80,655    $80,655
Obligations*               2000                    0                -4,320                         0    -34,579
 Balance                   2000                   $0               $76,335                   $80,655    $46,076

Allotments                 2001            $123,000               $222,957               $222,957      $222,957
Obligations*               2001             -72,624               -115,568                -96,524      -193,915
 Balance                   2001             $50,376               $107,389               $126,433       $29,042

Allotments                 2002            $123,000               $198,966               $198,966      $198,966
Obligations*               2002             -54,959               -366,024               -341,982      -207,505
 Balance                   2002             $68,041              -$167,058              -$143,016       -$8,539



Allotments                Totals           $246,000               $502,578               $502,578      $502,578
Obligations*              Totals           -127,583               -485,912               -438,506      -435,999
  Balance                 Totals           $118,417                $16,666                $64,072       $66,579
__________
* “Obligations” consist of disbursements and outstanding encumbrances for unpaid invoices.

Source: Based on summaries prepared by the General Ledger Section, Department of Finance.




                                                       11
APPENDIX 4 – GOVENOR’S RESPONSE TO DRAFT




                   12
     APPENDIX 4
       Page 2 of 2




13
APPENDIX 5 – INNOVATIVE’S RESPONSE TO DRAFT




                   14
     APPENDIX 5
       Page 2 of 3




15
     APPENDIX 5
       Page 3 of 3




16
APPENDIX 6 – STATUS OF RECOMMENDATIONS

 Finding/Recommendation
        Reference             Status                        Action Required

           1              Unresolved.        Reconsider the recommendation and provide a
                                             response that states concurrence or
                                             nonconcurrence. If concurrence is stated,
                                             provide a corrective action plan that includes
                                             the target date and title of the official
                                             responsible for implementation of the
                                             recommendation.




                                        17
                            How to Report
                Fraud, Waste, Abuse and Mismanagement
Fraud, waste, and abuse in government are the concern of everyone B Office of Inspector
General staff, Departmental employees, and the general public. We actively solicit
allegations of any inefficient and wasteful practices, fraud, and abuse related to
Departmental or Insular Area programs and operations. You can report allegations to us
by:
             Mail:         U.S. Department of the Interior
                           Office of Inspector General
                           Mail Stop 5341-MIB
                           1849 C Street, NW
                           Washington, DC 20240
             Phone:        24-Hour Toll Free               800-424-5081
                           Washington Metro Area           202-208-5300
                           Hearing Impaired (TTY)          202-208-2420
                           Fax                             202-208-6081
                           Caribbean Field Office          340-774-8300
                           Hawaiian Field Office           808-525-5310
             Internet:     www.oig.doi.gov/hotline_form.html




                         U.S. Department of the Interior
                           Office of Inspector General
                               1849 C Street, NW
                             Washington, DC 20240
                                    www.doi.gov
                                   www.oig.doi.gov
